         Office of inspector General




March 31, 2006

DAVID E. WILLIAMS, JR.
MANAGER, PROCESSING AND DISTRIBUTION OPERATIONS

SUBJECT: Audit Report - Proposed Enhancement of the Singulation Scan Induction
         Unit at Bulk Mail Centers (Report Number NO-AR-06-004)

This report presents the results of our audit of the proposed enhancement to the
Singulation Scan Induction Unit (SSIU) at bulk mail centers (BMCs) (Project Number
05YG040NO000). The objective of this audit was to evaluate the impact of the optical
character reader (OCR) system on SSIU efficiency. We conducted this audit at the
request of the U.S. Postal Service Headquarters manager, Processing and Distribution
Operations, and in cooperation with local BMC officials.

We found that installing the OCR on the SSIUs would allow the Postal Service to
process parcels more efficiently. Parcels are generally processed through two
operations and barcode printer applicators used in processing are unreliable and
antiquated. Consequently, the BMCs used more workhours than necessary to process
parcels. Purchasing OCRs would improve efficiency by eliminating an operation,
reducing manual mail handling, and decreasing the Postal Service’s reliance on
barcode technology.

During the audit, Postal Service managers were briefed on our finding before they
presented the OCR Decision Analysis Report to the Capital Investment Committee
(CIC). The CIC approved the Postal Service’s proposal to purchase and deploy the
OCR to 19 BMCs. Consequently, this report contains no recommendations.
Management was given the opportunity to comment on the report and agreed with our
finding. Management’s comments, in their entirety, are included in Appendix D of this
report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, Network Operations – Processing, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



for
Colleen McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Walter F. O’Tormey
    Jaime O. Fuentes
    Steven R. Phelps
Proposed Enhancement of the Singulation                                    NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                   TABLE OF CONTENTS


 Executive Summary                                                              i

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objective, Scope, and Methodology                                          2
     Prior Audit Coverage                                                       3

 Part II

 Audit Results                                                                  4

 Assessment of Optical Character Reader Installation on Singulation Scan
 Induction Unit Efficiency                                                      4

      Primary and Secondary Operations                                          4
      Barcode Printer Applicators                                               6
      Impact on Singulation Scan Induction Unit Operations Nationwide           8
      Management’s Actions                                                      9
 Management’s Comments                                                          9
 Evaluation of Management’s Comments                                            9

 Appendix A. Optical Character Reader Equipment                               10

 Appendix B. Fiscal Year 2005 Percentage of Barcoded Versus
             Non-Barcoded Mail at 19 Bulk Mail Centers                        11

 Appendix C. Handling Ratio Comparison for 19 Bulk Mail Centers With
             Singulation Scan Induction Units, June 2004 Through
             September 2005                                                   12

 Appendix D. Management’s Comments                                            13
Proposed Enhancement of the Singulation                                     NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                 LIST OF ILLUSTRATIONS

 Illustration 1: The SSIU without the OCR can process only parcels with
                 readable barcodes                                              5

 Illustration 2: View of primary sorting operation at the Washington BMC
                 with backlog of parcels not being worked                       6

 Illustration 3: Barcode printer applicator with label roll cover missing       7
Proposed Enhancement of the Singulation                                                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                   EXECUTIVE SUMMARY
 Introduction                   The U.S. Postal Service Office of Inspector General (OIG)
                                assessed the impact of the optical character reader (OCR)
                                system on the efficiency of the Singulation Scan Induction
                                Unit (SSIU). We conducted the audit at the request of the
                                Postal Service Headquarters manager, Processing and
                                Distribution Operations, and in cooperation with local bulk
                                mail center (BMC) officials.

 Results in Brief               While the SSIU has improved processing of parcels, use of
                                the OCR can result in further improvements. Specifically,
                                we found that the following conditions support the need for
                                the OCR.

                                    •    A large percentage of mail had to be processed
                                         through two operations.

                                    •    Barcode printer applicators were unreliable and
                                         antiquated.

                                39 U.S.C. Part 1, Chapter 4, Section 403 (b) (1), states:

                                        It shall be the responsibility of the Postal
                                        Service to maintain an efficient system of
                                        collection, sorting, and delivery of the mail
                                        nationwide . . . . .

                                In addition, the United States Postal Service Strategic
                                Transformation Plan 2006 — 2010, states in part:

                                        Bulk Mail Center secondary parcel sort
                                        systems will also be upgraded to improve
                                        read rates and productivity.

                                U.S. Postal Service management did not pursue
                                deployment of the OCR at the BMCs until the completion
                                of internal technical testing. Consequently, SSIUs were not
                                operating at the highest level of efficiency, so BMCs had to
                                use more workhours than necessary to process parcels.




                                                    i
Proposed Enhancement of the Singulation                                          NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers




                                During the audit, Postal Service managers were briefed on
                                our finding before they presented the OCR Decision
                                Analysis Report to the Capital Investment Committee (CIC).
                                The CIC approved the Postal Service’s proposal to
                                purchase and deploy the OCR to 19 BMCs.

 Summary of                     This report contains no recommendations. However,
 Recommendations                management was given the opportunity to comment on the
                                finding.

 Summary of                     Management concurred with our finding. They anticipate
 Management’s                   adding OCR capabilities to the SSIU will have a very
 Comments                       positive effect on improved sorting efficiencies and
                                productivities. Management’s comments, in their entirety,
                                are included in Appendix D.

 Overall Evaluation of          Management’s comments are responsive to the finding.
 Management’s                   Management’s actions taken address the issues identified in
 Comments                       the report.




                                                ii
Proposed Enhancement of the Singulation                                                                NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                             INTRODUCTION
    Background                      Each of the 21 bulk mail centers (BMC)1 distributes Parcel
                                    Post, Media Mail, Standard Mail, and Periodicals in bulk
                                    form. When bulk mail arrives at the BMCs, it is transported
                                    to primary or secondary parcel sorter machines.2 Parcels
                                    sent to primary sorters are scanned or keyed in for address
                                    information. Parcels without barcodes can have a barcode
                                    applied with barcode printer applicators on the primary
                                    sorters, which increases the number of parcels the
                                    Singulation Scan Induction Unit (SSIU) can read.
                                    Pre-barcoded packages are often sent directly to the
                                    secondary sorters. Since the secondary sorters receive the
                                    majority of their mail pre-barcoded, the U.S. Postal Service
                                    installed the SSIU on the secondary sorters.

                                    The SSIU automates the induction of the barcoded parcels
                                    onto the secondary parcel sorting machines by converting
                                    parcels into a single, optimally spaced line of separated
                                    parcels, recording the dimensions and weight, and reading
                                    the package barcode. The SSIU then inducts parcels onto
                                    sorting machines, which use the barcode information from
                                    the SSIU barcode scan to sort them. However, many
                                    parcels coming from other BMCs arrive with no barcodes
                                    because labels fall off or barcode printer applicators
                                    malfunction. When this mail is inducted into the secondary
                                    sorters, the SSIU cannot read it.

                                    In January 2000, the Board of Governors authorized the
                                    Postal Service to spend over $103 million in capital and
                                    expense funds to buy and install SSIUs to process
                                    secondary parcels in the BMCs. In October 2001, the
                                    Postal Service issued a modification to the Decision
                                    Analysis Report (DAR) requesting an additional
                                    $12.5 million to complete the installation of 42 SSIUs in the
                                    21 BMCs. Additional funding was needed to modify the
                                    generic design to site-specific designs at each BMC and to
                                    replace the laser-based barcode reader with a new,
                                    technologically superior camera-based reader. The
                                    camera-based reader outperformed the savings projections
1
  BMCs are located in Atlanta, Chicago, Cincinnati, Dallas, Denver, Des Moines, Detroit, Greensboro, Jacksonville,
Kansas City, Los Angeles, Memphis, Minneapolis, New Jersey, Philadelphia, Pittsburgh, San Francisco, Seattle,
Springfield, St. Louis, and Washington, DC. Since the BMCs in Chicago and New Jersey do not have the SSIU, they
were not included in our review.
2
  In general, primary sorters process originating mail leaving the local service area to be transported to other BMCs.
Secondary sorters generally process destinating mail to the local service area.



                                                          1
Proposed Enhancement of the Singulation                                                           NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                     in the original DAR and allowed for future optical character
                                     reader (OCR) capabilities. Two sites, Chicago and New
                                     Jersey, did not have space to accommodate the SSIU, so
                                     only 38 SSIUs were installed at the remaining 19 BMCs.

                                     In February 2004, an OCR3 system was installed on the
                                     SSIUs at the Jacksonville BMC. The Jacksonville BMC is
                                     the only test site. The OCR gives the SSIU the ability to
                                     read those parcels that it previously could not read by
                                     providing character recognition capability, which interprets
                                     the address information on non-barcoded parcels. This will
                                     improve the percentage of mail that can be processed by
                                     the SSIU. Appendix A shows two pictures of the OCR unit.

                                     In July 2005, the U.S. Postal Service Office of Inspector
                                     General (OIG) and the Postal Service agreed that a review
                                     of the need for the OCR system, and its impact on the
                                     SSIU, would add value to the Postal Service’s efforts to
                                     process parcels more efficiently within the BMC network.

    Objective, Scope, and            The objective of this audit was to evaluate the impact of the
    Methodology                      OCR system on SSIU efficiency. We reviewed parcel
                                     processing performance for all BMCs, using data from the
                                     Breakthrough Productivity Initiative web pages as well as
                                     data obtained from each BMC and the Web-based End-of-
                                     Run (WebEOR) system. We reviewed before-and-after
                                     data from the OCR test site, Jacksonville BMC, to determine
                                     whether the OCR at this BMC had improved the productivity
                                     of parcel processing. We did not test the validity of controls
                                     over these systems. However, we checked the accuracy of
                                     data by confirming our analysis and results with Postal
                                     Service managers.

                                     We conducted this audit from September 2005 through
                                     March 2006 in accordance with generally accepted
                                     government auditing standards and included such tests of
                                     internal controls as we considered necessary under the
                                     circumstances. We discussed our observations and
                                     conclusions with management officials and included their
                                     comments where appropriate.




3
    The Postal Service has been using OCR technology since the mid-1950s for letter processing.



                                                          2
Proposed Enhancement of the Singulation                                         NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers




 Prior Audit Coverage           We issued a prior report on this topic in 2001, Singulate,
                                Scan, Induction Unit (Report Number DA-AR-01-006,
                                September 27, 2001). We found the SSIU was experiencing
                                delays at 18 of 21 BMCs, and we also found noncompliance
                                with Occupational Safety and Health Administration (OSHA)
                                noise level requirements. We recommended that the Postal
                                Service revise the deployment schedule and ensure
                                compliance with OSHA requirements. The Postal Service
                                generally agreed with our recommendations and findings.
                                In June 2003, the Postal Service provided documentation to
                                demonstrate that the recommendations had been
                                implemented.




                                                3
Proposed Enhancement of the Singulation                                                NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                        AUDIT RESULTS
 Assessment of                 We found that installing the OCR system on the SSIU would
 Optical Character             process parcels more efficiently by increasing the number of
 Reader Installation           parcels that can be read and processed on the secondary
 on Singulation Scan           sorters. Specifically, the following conditions supported the
 Induction Unit                need for the OCRs:
 Efficiency
                                   •    A large percent of mail had to be processed through
                                        two operations.

                                   •    Barcode printer applicators were unreliable and
                                        antiquated.

                               39 U.S.C. Part 1, Chapter 4, Section 403 (b) (1), states:

                                       It shall be the responsibility of the Postal
                                       Service to maintain an efficient system of
                                       collection, sorting, and delivery of the mail
                                       nationwide. . . . .

                               In addition, the United States Postal Service Strategic
                               Transformation Plan 2006 — 2010, states in part:

                                       Bulk Mail Center secondary parcel sort
                                       systems will also be upgraded to
                                       improve read rates and productivity.

                               Postal Service management did not plan to deploy the OCR
                               at the BMCs until the completion of internal technical
                               testing. Consequently, SSIUs were not operating at the
                               highest level of efficiency, so the BMCs had to use more
                               workhours than necessary to process parcels.

                               We briefed managers on the results of our audit before they
                               submitted the OCR DAR to the CIC. The CIC subsequently
                               approved the DAR.

 Primary and                   We found that multiprocessing operations was inefficient —
 Secondary Operations          a large portion of incoming mail needed to be processed by
                               both the primary and secondary operations. We analyzed
                               the mail composition of the 19 BMCs with the SSIU for fiscal
                               year (FY) 2005 and found that approximately 39 percent of
                               incoming mail was not barcoded. Appendix B shows the
                               percentage of incoming barcoded and non-barcoded mail



                                                   4
Proposed Enhancement of the Singulation                                                                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                   for each of the BMCs. This high percentage of
                                   non-barcoded mail prevents direct induction into the SSIU.
                                   Instead, this mail must receive additional processing at the
                                   primary operation where a barcode is applied. (See
                                   Illustration 1.)




    Illustration 1. The SSIU without the OCR can process only parcels with readable barcodes. In
    FY 2005, approximately 39 percent of incoming mail did not have barcodes and therefore required
    processing through the primary operation. (Washington BMC, April 12, 2005)

                                   Once barcoded, parcels are then directed to the secondary
                                   sorter for further processing.4 However, with the use of the
                                   OCR, a large percentage of mail could be directly inducted
                                   to the SSIU on the secondary operation.5 (See
                                   Illustration 2.)




4
 Some mail is finalized on the primary sorters and not sent to the secondary sorters.
5
 Some BMCs will need to install additional equipment to increase the ability to induct directly into the secondary
sorters.



                                                           5
Proposed Enhancement of the Singulation                                                                      NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers




    Illustration 2. View of primary sorting operation at the Washington BMC with backlog of parcels not
    being worked. Introduction of the OCR would allow some primary mail to be processed on the
    secondary sorters, thus relieving congestion and reducing dependence on the primary operation.
    (Washington BMC, April 16, 2005)

    Barcode Printer                   Barcode printer applicators are used to place barcodes on
    Applicators                       parcels, which is necessary for further processing by the
                                      SSIU. We found these barcode printer applicators were
                                      unreliable and antiquated.

                                      Barcode Printer Applicators Unreliable. Barcode printer
                                      applicators were not always functioning properly and
                                      affected the ability of the SSIU to process parcels.6 For
                                      example, at the Washington BMC, we found that eight of
                                      10 barcode printer applicators were not working.7 Barcode
                                      printer applicators also malfunctioned at other sites. Based
                                      on our survey of the 19 BMCs with SSIUs, 90 percent of the
                                      sites reported frequent malfunctions with the barcode printer
                                      applicators. In addition, in FY 2005, 16 BMCs submitted
                                      568 repair orders for malfunctions of the barcode printer
                                      applicators. These repairs cost over $47,000 and required


6
    A barcode, which is affixed by barcode printer applicators, is necessary for the SSIU to sort parcels.
7
    The OIG conducted an audit at the Washington BMC in April 2005.



                                                              6
Proposed Enhancement of the Singulation                                                                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                    almost 1,100 workhours.8 Examples of problems identified
                                    included: multiple labels printed, labels that did not adhere
                                    to parcels, illegible barcodes, jams, and misfeeds. The
                                    Postal Service has also had difficultly obtaining replacement
                                    parts. (See Illustration 3.)

                                    Antiquated Barcode Printer Applicators. Many barcode
                                    printer applicators are over 13 years old9 and had likely
                                    exceeded their useful service life.10 The advanced age of
                                    this equipment will likely lead to increased malfunctions,
                                    maintenance costs, and difficulty with obtaining replacement
                                    parts. Also, barcode printer applicators are probably not the
                                    most efficient means of applying barcodes because of
                                    technological advances over the past 13 years.
                                    Furthermore, if the reliance on barcodes is continued, new
                                    barcode printer applicators may need to be purchased in the
                                    future.




      Illustration 3. Barcode printer applicator that had a missing label roll cover. Barcode labels were
      misapplied or were applied skewed, and sometimes missed the package entirely. (Jacksonville
      BMC, September 21, 2005)


8
  Three BMCs, Jacksonville, St. Louis, and Memphis, did not submit repair orders through the Technology
Management database at Postal Service Engineering Headquarters.
9
  The only major enhancement to the barcode printer applicators during the past 5 years has been replacing the
printer heads that were using ribbon technology with printer heads using thermal technology.
10
   The DAR for the barcode printer applicators did not indicate the length of useful service life. The Postal Service
expected a 2-year life for the barcode printer applicators. However, under the Internal Revenue Service’s rules for
depreciation, the expected life for computer equipment and printers is 5 years.



                                                           7
Proposed Enhancement of the Singulation                                                               NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers



 Impact on Singulation             Postal Service management did not pursue deployment of
 Scan Induction Unit               the OCR at the BMCs until the completion of internal
 Operations Nationwide             technical testing. Based on our review, we found that the
                                   Postal Service should pursue OCR deployment. The use of
                                   the OCR could produce the following nationwide results:

                                       •    Reduce reliance on the barcode printer applicators.

                                       •    Reduce the need for multiprocessing operations.

                                       •    Reduce mail handling, resulting in improved
                                            productivity.

                                   Reduce Reliance on the Barcode Printer Applicators.
                                   Barcode printer applicator problems have indirectly
                                   diminished SSIU efficiency, since a readable barcode must
                                   be on the parcel for it to be processed. However, the OCR
                                   would allow the SSIU to process parcels with or without a
                                   barcode, thus increasing SSIU efficiency. In addition, the
                                   Postal Service’s need to maintain and/or acquire
                                   replacements for barcode printer applicators would be
                                   significantly reduced.

                                   Reduce the Need for Multi-Processing Operations. Through
                                   the use of the OCR, the Jacksonville BMC was able to
                                   significantly reduce its primary operation, since a larger
                                   percentage of incoming mail could be processed by the
                                   SSIU. For example, during the first year of implementation,
                                   the Jacksonville BMC reduced its primary operation
                                   workhours by 19.5 percent without a significant increase in
                                   secondary workhours.11 If other BMCs12 could obtain
                                   similar reductions, primary workhours could be reduced by
                                   about 343,000 annually.

                                   With the use of the OCR in conjunction with the SSIU,
                                   readability rates remained constant. For example, in
                                   September 2005, SSIU readability for the Jacksonville BMC
                                   was 84 percent, compared to the average SSIU readability
                                   of 83 percent for sites first using the primary operation. This
                                   meant that the Jacksonville BMC obtained the same or
                                   better readability as other BMCs and, at the same time,

11
   Secondary hours at Jacksonville BMC increased 5 percent.
12
   Chicago, New Jersey, Kansas City, Jacksonville, and St. Louis are excluded from this analysis since these sites
either have no SSIU or have already begun to reduce their primary operation and induct mail directly into the SSIU.



                                                          8
Proposed Enhancement of the Singulation                                                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                                      reduced the need for sorting parcels on the primary
                                      operation.

                                       Reduced Mail Handling Resulting in Improved Productivity.
                                       The ability to reduce sorting as a result of improved
                                       readability provided by the OCR reduced mail handling and
                                       improved productivity. For example, from June 2004 to
                                       September 2005, the Jacksonville BMC had a handling
                                       ratio13 of 1.21, compared to the average handling ratio of
                                       1.56. This means that Jacksonville BMC rehandled mail,
                                       on average, 22 percent fewer times than other BMCs.
                                       Appendix C shows the handling ratio for each of the BMCs.

                                      Additionally, less handling resulted in improved productivity
                                      based on first handling pieces (FHP) per workhour. For
                                      example, before the OCR was installed at the Jacksonville
                                      BMC, FHP productivity averaged 259 pieces per workhour
                                      in the first quarter of FY 2003. After the OCR was installed,
                                      productivity increased to 283 pieces per workhour, a
                                      9 percent increase. Furthermore, the Jacksonville BMC
                                      reduced total machineable parcel processing workhours
                                      from 260,493 in FY 2003 to 247,333 in FY 2005, a decrease
                                      of 13,160 workhours (5 percent). This workhour reduction
                                      occurred although machineable parcels increased by
                                      2.75 million pieces (3.75 percent) in total volume during the
                                      same time period.

 Management’s Actions                 During the audit, Postal Service managers were briefed on
                                      our finding before they presented the OCR DAR to the CIC.
                                      The CIC approved the Postal Service’s proposal to
                                      purchase and deploy the OCR to 19 BMCs. Consequently,
                                      we are not making any recommendations.

 Management’s                         Management concurred with our finding. Management
 Comments                             anticipates adding OCR capabilities to the SSIU will have a
                                      very positive effect on improved sorting efficiencies and
                                      productivities.

 Evaluation of                        Management’s comments are responsive to the finding.
 Management’s                         Management’s actions taken address the issues identified in
 Comments                             the report.



13
     Handling ratio is calculated as total pieces handled divided by FHP.



                                                             9
Proposed Enhancement of the Singulation                                                NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers



                                            APPENDIX A
                  OPTICAL CHARACTER READER EQUIPMENT




     The OCR system consists of cabinets with personal computers, communication equipment, and
     software for OCR image processing. The OCR reads addresses, which allows the processing of
     non-barcoded parcels. (Jacksonville BMC, March 23, 2005)




     OCR image server video display and cabinets with image server units. The Postal Service
     reported that the OCR successfully processed between 60 and 65 percent of the non-barcoded
     parcels. (Jacksonville BMC, March 23, 2005)




                                                 10
Proposed Enhancement of the Singulation                                                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers



                                                             APPENDIX B

               FISCAL YEAR 2005 PERCENTAGE OF BARCODED VERSUS NON-BARCODED
                                 MAIL AT 19 BULK MAIL CENTERS


  80%

  70%

  60%

  50%

  40%

  30%

  20%

  10%

   0%
                                                                                 o




                                                                                 a
                                                                                 it
                                     r




                                                                               ity
                   ti




                                                                                ld
                            s




                                                s




                                                                                ul




                                                                                 h

                                                                                 o




                                                                                is
          a




                                                                               tle
                                                                                 s

                                                                                is
                                                                              ille




                                                                                C
                                  ve




                                                                              ro
                    a




                                             ne
                         la




                                                                              le




                                                                              hi
                                                                              or




                                                                             rg
        nt




                                                                             sc
                                                                           ph




                                                                           ou
                                                                             ie




                                                                             D
                                                                           Pa
                                                                           C
                 nn




                                                                           at
                                                                         nv




                                                                         ge
                         al




                                                                          lp
                                                                          et
                                 en
     la




                                                                        sb




                                                                        bu




                                                                         gf
                                                                          ci
                                         oi




                                                                         n
                                                                       .L
                                                                     em




                                                                      Se
                                                                      as
                        D




                                                                     de
              ci
   At




                                                                       D




                                                                     an
                                                                       t.




                                                                      to
                                                                     so




                                                                    rin
                                         M




                                                                    An
                                                                    en
                                D




                                                                    tts
                                                                   /S
           in




                                                                  St
                                                                  ns




                                                                 ng
                                                                 ila
                                                                  M
                                                                 ck




                                                                 Fr




                                                               Sp
                                   es




                                                                re




                                                                Pi
          C




                                                                is
                                                                 s
                                                             Ka




                                                             Ph




                                                              hi
                                                             Ja




                                                             Lo
                                                     G




                                                             ol
                                  D




                                                              n




                                                            as
                                                           Sa
                                                           ap




                                                         W
                                                        ne
                                                     in
                                                    M




                                                         Barcoded        Non-barcoded




                                                                    11
Proposed Enhancement of the Singulation                                NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers



                                                       APPENDIX C

                                 HANDLING RATIO COMPARISON FOR 19 BULK MAIL CENTERS WITH
                                            SINGULATION SCAN INDUCTION UNITS
                                            JUNE 2004 THROUGH SEPTEMBER 2005

                          2.00

                          1.80

                          1.60

                          1.40
         HANDLING RATIO




                          1.20

                          1.00

                          0.80

                          0.60

                          0.40

                          0.20

                          0.00




                                    M a




                                    D s
                                   hi d




                                  An ti




                                            ille
                                ila las
                                    S e it




                                   an is
                                   rin o




                                ns ver
                                 St es
                               re attle




                                  tts ta

                                               h




                                   so y
                                 M les



                                               o
                                               n




                                  ne is

                                              i
                                            hi
                                             a
                                           ro




                                             it
                                              l




                                           rg
                              Sp bor




                                           sc
                                           to




                                           ol
                                          ph
                             W gfie




                             M Lou
                                           n




                             Ja s C
                                         nn




                                          n




                                        nv
                             Ph a l

                             D elp
                                       ge
                                        et




                                         n
                                        la
                                       ng



                                       bu




                                       ap
                                        ci




                                       oi
                          S a em




                                       e
                                       s




                                      D
                                       i
                                    At
                                     D




                                      c




                                    a
                                  en




                                    d



                                     .
                                  in
                               as




                                ck
                               Fr




                               es
                               Pi

                               C




                               in
                               s




                             Ka
                            Lo
                             G




                             n


                                                      BULK MAIL CENTERS




                                                           12
Proposed Enhancement of the Singulation                 NO-AR-06-004
 Scan Induction Unit at Bulk Mail Centers


                    APPENDIX D. MANAGEMENT’S COMMENTS




                                            13
